VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Health 

                                                                    Administration 

                                                                           Audit of the 

                                                                     Supportive Services for 

                                                                    Veteran Families Program 





                                                                                       March 31, 2014 

                                                                                        13-01959-109 

              ACRONYMS AND ABBREVIATIONS 


AMI           Area Median Income
DD 214        Certificate of Release or Discharge from Active Duty
FSC           Financial Service Center
FY            Fiscal Year
OIG           Office of Inspector General
SSVF          Supportive Services for Veteran Families
VA            Veterans Affairs
VHA           Veterans Health Administration




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                            Email: vaoighotline@va.gov

              (Hotline Information: http://www.va.gov/oig/hotline) 

                    Report Highlights: Audit of VHA’s
                    Supportive Services for Veteran
                    Families Program

Why We Did This Audit                            Active Duty” (DD 214). Some grantees did
                                                 not always follow up to ensure receipt of the
In December 2010, VA established the             required DD 214 when an interim eligibility
Supportive Services for Veteran Families         document was used to avoid delaying
(SSVF) program to rapidly re-house               program participation.
homeless veteran families and prevent
homelessness for those at imminent risk due      This occurred because some grantees were
to a housing crisis.      For fiscal years       not aware when new AMI limits were
(FYs) 2012 and 2013, the Veterans Health         published. As a result, VHA risks providing
Administration (VHA) awarded about               SSVF services to ineligible veterans or
$60 million and $100 million in SSVF             excluding eligible veterans from the
grants, respectively, and has increased          program.
awards to nearly $300 million for FY 2014.
Based on an FY 2013 request of the House         What We Recommended
Committee      on     Veterans’     Affairs
Subcommittee on Health, we conducted this        We recommended the Under Secretary for
audit to determine if the VHA’s SSVF             Health ensure SSVF program management
program grantees appropriately expended          implements a mechanism to inform grantees
program funds.                                   when the most current AMI limits are
                                                 published and ensure grantees comply with
What We Found                                    eligibility documentation requirements.

VHA’s SSVF program has adequate                  Agency Comments
financial controls in place that are working
as intended to provide reasonable assurance      The Under Secretary for Health concurred
that funds are appropriately expended by         with our recommendations and provided an
grantees. We determined program staff            appropriate action plan. We consider the
were reviewing grantee timecards, invoices       SSVF program actions sufficient and closed
for    temporary      financial    assistance,   the recommendations as completed.
subcontractor costs, and they conducted
annual inspections. However, SSVF
program officials can improve controls to
ensure only eligible veterans and their
family members participate in the program.
We found three of five grantees used
outdated area median income (AMI) limits                    LINDA A. HALLIDAY
to determine eligibility. In addition, four of          Assistant Inspector General
five grantees did not verify veterans’                   for Audits and Evaluations
discharge status with the required
“Certificate of Release or Discharge from

                                                                                            i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 
    Finding                VHA’s Controls To Ensure Program Eligibility Need Strengthening ................2
 
                           Recommendations ...............................................................................................5
 
Appendix A                 Background ........................................................................................................ 6
 

Appendix B                 Scope and Methodology..................................................................................... 8
 

Appendix C                 Statistical Sampling Methodology ................................................................... 10
 

Appendix D                 Under Secretary for Health Comments ............................................................ 11
 

Appendix E                 Office of Inspector General Contact and Staff Acknowledgments .................. 15
 

Appendix F                 Report Distribution........................................................................................... 16
 




                                                                                                                                                 ii
                                       Audit of VHA’s Supportive Services Veteran Families Program



                    INTRODUCTION
Objective           We conducted this audit to determine if the Veterans Health
                    Administration’s (VHA) Supportive Services for Veteran Families (SSVF)
                    program grantees appropriately expended program funds.

SSVF Program        In December 2010, VA established the SSVF program. Under the program,
                    VA awards grants to private nonprofit organizations and consumer
                    cooperatives that can provide a range of supportive services to eligible very
                    low-income veteran families. Supportive services include outreach, case
                    management, and assistance in obtaining VA benefits and coordinating other
                    public benefits available in the grantee’s area or community. The program is
                    designed to rapidly re-house homeless veteran families and prevent
                    homelessness for those at imminent risk due to a housing crisis. SSVF
                    grantees can make temporary financial assistance payments on behalf of
                    veterans to third-party providers to cover rent, utilities, security deposits,
                    moving, transportation, child care, and emergency supplies.

Eligibility         Program participants must be either a veteran or a member of a family in
                    which the head of household (or the spouse of the head of household) is a
                    veteran. A veteran’s household income cannot exceed 50 percent of the area
                    median income (AMI).            The Department of Housing and Urban
                    Development updates AMI annually based upon income data for the state or
                    local jurisdiction in which a household resides.

Program             For fiscal year (FY) 2012, VA awarded 85 grants totaling about $60 million
Funding             and 151 grants totaling approximately $100 million for FY 2013. VA
                    awarded 319 grants totaling nearly $300 million for FY 2014.

Organizational      The SSVF program office is located in Philadelphia, PA, and is aligned
Structure           under the VHA National Homelessness Program. The program is staffed
                    with 14 full-time equivalent positions, including 9 regional coordinators who
                    are responsible for providing oversight of grantees.

Other               The following appendixes provide additional information.
Information
                       Appendix A provides background information.
                       Appendix B provides details on the audit’s scope and methodology.
                       Appendix C provides the audit’s statistical sampling methodology.




VA Office of Inspector General                                                                       1
                                    Audit of VHA’s Supportive Services for Veteran Families Program



                    RESULTS AND RECOMMENDATIONS
Finding              VHA’s Controls To Ensure Program Eligibility Need
                     Strengthening

                    VHA’s SSVF program had adequate financial controls in place that were
                    working as intended to ensure funds were appropriately expended by
                    grantees. We determined program staff were reviewing grantee timecards,
                    invoices for temporary financial assistance, and subcontractor costs on a
                    recurring basis. Program staff also conducted annual inspections, reviewed
                    independent audits, and followed up to ensure identified deficiencies were
                    corrected.

                    SSVF program officials can improve controls to ensure only eligible veterans
                    and their family members participate in the program. We reviewed 5 of
                    83 grantees that were renewed in FY 2013. We found 3 of 5 grantees used
                    outdated AMI limits to determine the eligibility of 57 of 150 veteran
                    families. In addition, 4 of 5 grantees did not verify 17 of 150 veterans’
                    discharge status with the required “Certificate of Release or Discharge from
                    Active Duty” (DD 214).

                    This occurred because some grantees were not aware when new AMI limits
                    were published and did not always follow up to ensure receipt of the required
                    DD 214 when an interim eligibility document was used to avoid delaying
                    program participation. As a result, VHA risks providing SSVF services to
                    ineligible veterans or excluding eligible veterans from the program.

Annual              After reviewing 30 case files from each of the 5 sampled grantees, we
Inspections         determined grantee files included sufficient documentation and regional
and
Independent
                    coordinators provided necessary oversight. Timecards and payroll records
Audits              showed direct labor costs were appropriately supported and charged to the
Conducted           grant. In addition, temporary financial assistance costs were allowable and
                    documented in accordance with guidance. Subcontractor costs were
                    adequately supported and were in accordance with the scope of work in the
                    subcontractors’ agreement. Lastly, regional coordinators were conducting
                    required annual inspections and following up to ensure identified
                    deficiencies were addressed in corrective action plans.

                    VA’s Financial Service Center (FSC) performed independent audits of
                    selected grantees. Grantees were selected for review based on the results of
                    FSC’s assessment of risk in coordination with the SSVF program office.




VA Office of Inspector General                                                                    2
                                     Audit of VHA’s Supportive Services for Veteran Families Program


                    The objectives of the FSC audits were to determine if:

                    	   Expenses charged to the grant were reasonable, allowable, and allocable.
                    	   Expense thresholds and program cap requirements complied with
                         program policy.
                    	   Services were being provided in accordance with laws, rules, and
                         regulations.

                    During FY 2013, FSC planned to conduct 17 (20 percent) of 85 audits from
                    the FY 2012 grantees. In FY 2013, FSC completed 13 (76 percent) of
                    17 planned audits of grantees’ financial and performance records. FSC
                    audits determined that three were noncompliant with SSVF program
                    requirements and therefore were not renewed for FY 2014.

                    One of the three grantees found to be noncompliant was selected in our
                    initial audit sample. According to SSVF program office staff, the grantee
                    was not renewed for FY 2014. FSC’s audit found issues of noncompliance
                    in case management, temporary financial assistance, and subcontractor
                    management. Because the program control was working as intended and the
                    grantee was not renewed, it was unnecessary to conduct a site visit. We
                    determined five sites were sufficient to accomplish our objective and our
                    early work in the SSVF program office determined oversight was adequate.

                    Single audits, mandated by the Office of Management and Budget Circular
                    A-133 and the Single Audit Act, are required for grantees receiving Federal
                    funds of $500,000 or more. The audits are conducted by external auditors
                    contracted by the grantees. According to SSVF program management, for
                    FY 2012, external auditors completed 128 single audits of SSVF program
                    grantees’ financial records and determined 127 grantees complied with the
                    requirements of Office of Management and Budget. For the noncompliant
                    grantee, external auditors identified a material weakness in a grant it received
                    from another source. The material weakness was not associated with the
                    SSVF grant.

Outdated            Grantees did not consistently use the most current AMI income limits
Income Limits       published annually by the Department of Housing and Urban Development.
Used                We found 3 of 5 grantees used outdated AMI limits to determine 57 of
                    150 veterans’ family eligibility. This occurred because grantees were not
                    aware when the Department of Housing and Urban Development published
                    new AMI limits.

                    The SSVF program requires grantees to obtain and apply the most current
                    AMI limits based on the household size. The veteran’s family gross annual
                    income must be at or below 50 percent of the AMI limit. We reviewed
                    30 veteran families’ case files for each grantee.


VA Office of Inspector General                                                                     3
                                       Audit of VHA’s Supportive Services for Veteran Families Program


                    Table 1 shows the number of cases where the grantees determined eligibility
                    based on outdated AMI.

                                           Table 1. Eligibility Determinations

                                                                             Cases Established
                                 Grantee                   Location
                                                                            Using Outdated AMI

                      Crisis Ministries             Charleston, SC                      6

                      People Assisting the Los Angeles, CA                             26
                      Homeless (PATH)
                      Volunteers of America
                                            Boston, MA                                 25
                      of Massachusetts
                         Total                                                         57
                      Source: OIG analysis of grantee case files

                    We determined that each of the 57 veteran families would be eligible for
                    SSVF services if the correct AMI limits were applied. However, VHA does
                    incur risks of including ineligible veteran families or excluding eligible
                    veteran families by using incorrect AMI information. The following
                    example illustrates a grantee using incorrect AMI information to determine
                    program eligibility.

Example                     In September 2012, a grantee used the local
                            FY 2011 50 percent AMI limit of $33,750 to determine the
                            eligibility of a veteran for SSVF services. However, the local
                            FY 2012 AMI limit of $34,250 should have been used.
                            Although the grantee applied an incorrect AMI to determine
                            program eligibility, we determined that the veteran was still
                            eligible for SSVF services because the veteran’s annual
                            income of $456 was less than the FY 2012 50 percent AMI of
                            $34,250.

Eligibility         At 4 of 5 of the grantees we visited, 17 (11 percent) of 150 case files did not
Verification        include a copy of the required DD 214. Any discharge status, other than
Needs               dishonorable, is necessary to be eligible for the SSVF program. The SSVF
Improvement
                    program requires a copy of the DD 214 to verify a veteran’s discharge status
                    for final program eligibility.

                    However, grantees may accept other documentation to determine interim
                    eligibility until they receive the DD 214. Sixteen case files that did not have
                    a copy of the required DD 214 included letters from the VA Regional Office,
                    a VA medical identification card, or copy of hospital inquiry screen to
                    determine interim eligibility. The remaining case file did not have a
                    DD 214 or an interim document to determine eligibility. The grantee

VA Office of Inspector General                                                                       4
                                    Audit of VHA’s Supportive Services for Veteran Families Program


                    removed the veteran from the program before receiving services because he
                    did not return to provide a DD 214 or the required income information.

                    This occurred because the grantees did not always follow up to ensure
                    receipt of the DD 214. As a result, this increases the risk that the various
                    types of SSVF services may be provided to ineligible veterans.

Conclusion          As the SSVF program expands, VHA needs continued diligence to ensure
                    veterans and families who are homeless or those at risk of homelessness are
                    adequately served. We reviewed and observed adequate controls at the
                    SSVF program office including annual inspections by the regional
                    coordinators and independent audits by the FSC. However, VHA should
                    ensure eligible SSVF veterans’ families receive the needed services while
                    strengthening controls to ensure grantees appropriately administer grants.

                    Recommendations

                    1.	 We recommended the Under Secretary for Health ensures the Supportive
                        Services for Veteran Families program implements a mechanism to
                        inform grantees when updated area median income limits are published.

                    2.	 We recommended the Under Secretary for Health ensures the Supportive
                        Services for Veteran Families program grantees follow up to obtain the
                        required Certificate of Release or Discharge from Active Duty (DD 214)
                        when interim documents are used to determine program eligibility.

VHA                 The Under Secretary for Health concurred with our recommendations and
Management          the SSVF program has implemented corrective actions. The SSVF program
Comments
                    will provide email notification to all grantees when AMI limits are published
                    by the Department of Housing and Urban Development. In addition, the
                    SSVF program issued updated guidance on December 19, 2013, instructing
                    grantees on the SSVF eligibility requirements and conducted a national
                    webinar for all SSVF grantees reviewing eligibility for services. The
                    updated guidance detailed how grantees can ensure that veterans are eligible
                    for services.

OIG Response        The actions implemented by the SSVF program were responsive to the intent
                    of our recommendations. We consider the SSVF program actions sufficient
                    and close the recommendations as completed. Appendix D contains the full
                    text of the Under Secretary’s comments.




VA Office of Inspector General                                                                    5
                                    Audit of VHA’s Supportive Services for Veteran Families Program


Appendix A          Background

Program             Section 604 of the Veteran’s Mental Health and Other Care Improvements
Overview            Act of 2008 (Public Law 110-387) established the SSVF program. The
                    program’s purpose is to provide supportive services grants to private
                    nonprofit organizations and consumer cooperatives that will coordinate or
                    provide supportive services to very low-income veteran families. In
                    December 2010, VA issued its first Notice of Fund Availability for SSVF
                    program grants. The initial SSVF grant year term for providing supportive
                    services to veterans and their families was October 1, 2011, through
                    September 30, 2012.

Performance         The SSVF program office reported and provided us with performance
Outcomes            outcome data.      According to the data, in FY 2012, a little over
                    21,000 households, comprising approximately 33,000 veterans and their
                    family members, were served by the SSVF program. Of the households
                    served, 71 percent were veterans without family members and 29 percent
                    were veterans with family members. The data showed 64 percent of all
                    households served were homeless and received rapid re-housing assistance to
                    obtain and maintain housing. The remaining 36 percent of households were
                    at-risk of homelessness and received homelessness prevention assistance.
                    Eighty-six percent of the households served were placed in a stable housing
                    environment at an average cost of approximately $2,800 per household. The
                    average length of time a veteran’s family received services in the program
                    was 93 days.

Notice of Fund      When funds are available for supportive services grants, VA is required to
Availability        publish a Notice of Fund Availability in the Federal Register. That notice
                    must identify:

                    	 The location for obtaining supportive services grant applications
                    	 The date, time, and place for submitting completed supportive services
                       grant applications
                    	 The estimated amount and type of supportive services grant funding
                       available
                    	 Any priorities for or exclusions from funding to meet the statutory
                       mandates of section 2044, title 38, United States Code and VA goals for
                       the SSVF program
                    	 The length of term for the supportive services grant award
                    	 The minimum number of total points and points per category that an
                       applicant or grantee, as applicable, must receive in order for a supportive
                       services grant to be funded



VA Office of Inspector General                                                                    6
                                    Audit of VHA’s Supportive Services for Veteran Families Program


                    	 Any maximum uses of supportive services grant funds for specific
                       supportive services
                    	 The time frames and manner for payments under the supportive services
                       grant
                    	 Other information necessary for the supportive services grant application
                       process as determined by VA




VA Office of Inspector General                                                                    7
                                     Audit of VHA’s Supportive Services for Veteran Families Program


Appendix B          Scope and Methodology

Audit Scope         We conducted our audit work from July 2013 through February 2014. To
                    accomplish our objective, we reviewed a statistical sample of
                    FY 2012 grantees renewed in FY 2013 and a statistical sample of veteran
                    families who received services from October 1, 2011, through
                    March 31, 2013.

Methodology         We reviewed applicable laws, regulations, policies, and guidelines and
                    interviewed program office management, regional coordinators, and grantee
                    representatives to obtain an understanding of SSVF program controls. To
                    determine if SSVF funds were appropriately expended, we performed onsite
                    analysis of the statistical sample of veterans’ families’ case files that
                    included:

                       Eligibility for services
                       Temporary financial assistance payments
                       Grantee labor in support of outreach, case management, and coordination
                        of other services
                       Grantee’s subcontractor oversight, if applicable

Fraud               The audit team assessed the risk that fraud, violations of legal and regulatory
Assessment          requirements, and abuse could occur during this audit. We included audit
                    steps to identify potentially fraudulent activities. We developed specific
                    audit steps to determine what management controls, if any, were in place to
                    identify any potentially fraudulent transactions. During this audit, we
                    exercised due diligence in staying alert to any fraud indicators and did not
                    find any instances of fraud. In June 2013, the Office of Inspector General
                    advised SSVF program management that it needed guidance pertaining to
                    program fraud. As a result, the SSVF program introduced a fraud awareness
                    program during its September 2013 grantee training conference.

Data Reliability    We relied on computer-processed data that the SSVF program office
                    provided to us, including data from the Department of Housing and Urban
                    Development’s Homeless Management Information System. The data we
                    received from SSVF included a listing of all 83 grantees renewed for
                    FY 2013 and a list of veteran participants sampled during our scope period.
                    We assessed the reliability of the grantee listing by comparing SSVF’s
                    grantee list with VA’s Office of Congressional and Legislative Affairs listing
                    of grantees.

                    We assessed the reliability of the participant list by comparing
                    150 participant records with the veteran participant listing provided by the
                    program office. Additional data reliability tests included steps to identify


VA Office of Inspector General                                                                     8
                                    Audit of VHA’s Supportive Services for Veteran Families Program


                    duplicate entries and data outside of the scope period. Based on these tests,
                    we concluded the data were sufficiently reliable to meet the audit’s objective.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objective. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                    9
                                       Audit of VHA’s Supportive Services for Veteran Families Program


Appendix C          Statistical Sampling Methodology

                    We verified that funds provided to eligible veterans’ families were properly
                    used and documented in case files and payments were in compliance with
                    SSVF program monetary limits for each type of assistance.

Population          We identified the population of grantees for FYs 2012 and 2013 using Excel
                    spreadsheets provided by SSVF program staff. The universe consisted of
                    83 grantees that were renewed by the SSVF program office for the second
                    year of the grant program.

Sampling            We developed a two-stage simple random sample. Stage one was based on a
Design              systematic probability proportional to size sample approach for the selection
                    of six grantees that the SSVF program office renewed during FY 2013, the
                    second SSVF program year. We did not visit one of the grantees due to
                    non-renewal of the grant for FY 2014. This grantee was subject to an FSC
                    audit in FY 2013, which resulted in issues of noncompliance in the program.
                    We determined five sites were sufficient to accomplish our objective because
                    our early work in the SSVF program office determined oversight was
                    adequate. The following table lists the grantees visited, grant amounts, and
                    their locations.

                                               Table 2. Selected Grantees

                                                    FY 2012          FY 2013
                                 Grantee             Grant            Grant            Location
                                                    Amount           Amount
                      Crisis Ministries            $1,000,000        $1,000,000 Charleston, SC

                      People Assisting the
                                                      $947,000       $1,000,000 Los Angeles, CA
                      Homeless (PATH)

                      Primavera Foundation            $877,416         $877,416 Tucson, AZ

                      The Advocate Program
                                                      $986,369         $999,965 Miami, FL
                      Veterans Link Up

                      Volunteers of America
                                                   $1,000,000        $1,000,000 Boston, MA
                      of Massachusetts
                      Source: OIG analysis of FY 2012 and FY 2013 grant awards

                    Stage two consisted of randomly selecting a sample of 30 veteran families
                    from each of the five grantees that provided supportive services during the
                    period October 1, 2011, through March 31, 2013.



VA Office of Inspector General                                                                      10
                                         Audit of VHA’s Supportive Services for Veteran Families Program


Appendix D             Under Secretary for Health Comments


                   Department of                                Memorandum
                   Veterans Affairs
           Date:     March 20, 2014
           From:
                     Under Secretary for Health (10)
           Subj:
                     Office of Inspector General, Draft Report, Veterans Health Administration
                     Audit of Supportive Services for Veteran Families Program (VAIQ 7453887)

             To:
                     VA Office of Inspector General - Audits and Evaluations

                     1. Thank you for providing me the opportunity to respond to the Audit of
                     the Supportive Services for Veterans Families Program.

                     2. I have reviewed the draft report and concur with the report’s
                     recommendations. Attached are corrective action plans.

                     3. If you have any questions or need additional information, please
                     contact Karen Rasmussen, Director, Management Review Service at (202)
                     461-6643, or by email at VHA10ARMRS2@va.gov.




                     Attachment




VA Office of Inspector General                                                                        11
                                 Audit of VHA’s Supportive Services for Veteran Families Program


                      VETERANS HEALTH ADMINISTRATION (VHA) 

                                  Action Plan 


Office of Inspector General, Draft Report, Veterans Health Administration, Audit
of Supportive Services for Veteran Families Program (Project Number 2013-
01959-R4-0106)

Date of Draft Report: February 20, 2014
Recommendations/                    Status                      Completion
Actions                                                         Date


Recommendation 1: We recommend the Under Secretary for Health ensures the
Supportive Services for Veteran Families program implement a mechanism to
inform grantees when updated area median income limits are published.

VHA Comments:

Concur

Supportive Services for Veteran Families (SSVF) will provide email notification to all
grantees when area median income (AMI) limits are published by Department of
Housing and Urban Development (HUD). In addition, SSVF will continue to provide
guidance on how to find the current AMI in the SSVF Program Guide and through
training provided by SSVF Regional Coordinators. On February 21, 2014 the SSVF
program office issued HUD’s AMI in an email sent to all grantees. The email stated the
following.

“The FY 2014 Area Median Income (AMI) limits were published by HUD at the end of
2013. Grantees should confirm that the AMI limits that they are using are the most
current limits. To do this, grantees can go to the HUD User Data Site at
http://www.huduser.org/portal/datasets/il/il14/index_il2014.html. They can then click on
the gray box for FY2014 Income Limit Documentation. They can select a state and a
county and then click on the next screen button. This will take them to the limits at
30%, 50%, and 80% per number of people in the household. Grantees are reminded
that in order to be eligible for SSVF, a Veteran family must have a gross annual income
that is at or below 50% AMI (which is considered very low-income).”

Status: Complete

Completion date: February 21, 2014


Recommendation 2: We recommend the Under Secretary for Health ensures the
Supportive Services for Veteran Families program grantees follow up to obtain



VA Office of Inspector General                                                                12
                                 Audit of VHA’s Supportive Services for Veteran Families Program


the required Certificate of Release or Discharge from Active Duty (DD 214) when
interim documents are used to determine program eligibility.

VHA Comments:

Concur

SSVF issued updated guidance to the field on December 19, 2013, instructing grantees
on the SSVF eligibility requirements. Additionally, on December 19, 2013, SSVF
conducted a national webinar for all SSVF grantees reviewing eligibility for services.
This guidance detailed how grantees can ensure that Veterans are eligible for services.
The following guidance has been excerpted from the SSVF Program Guide.

“Veterans eligible for SSVF must also meet the requirements defined for VHA benefits,
found at http://www.va.gov/healthbenefits/resources/epublications.asp.
To prove a participant’s Veteran status, grantees should obtain a copy of the Veteran’s
Department of Defense (DD) Form 214 Certificate of Release or Discharge from Active
Duty (see Section I.D. of Program Guide for definition of DD Form 214) and keep a
copy of that form in the Veteran family’s file. VA recommends one or more of the
following may be used as verification of Veteran status in lieu of the DD214: a VA
Medical Card, HINQ (see below), or proof from VBA of a VA service connected
disability.

The Department of Veteran Affairs utilizes several methods of Veteran eligibility
verification.

a. The Health Eligibility Center (HEC) supports VA's health care delivery system by
   providing centralized eligibility verification and enrollment processing services.
b. Hospital Inquiry System (HINQS) is used by VA Medical Centers to query VBA's
   compensation and pension BDN to secure information on C&P entitlements and
   eligibility.
c. Veteran Information Solution (VIS) is a web-based application that provides a
   consolidated view of comprehensive eligibility and benefits utilization data from
   across VBA.

To request verification through an existing VIS or HINQS user, grantees can call a
designated staff at the local VA medical center with VIS access. Some facilities work
out a call process with the VHA registration staff. Grantees unfamiliar with either of
these processes may contact their SSVF Regional Coordinator for assistance.”

In addition, grantees have been instructed that documents needed to confirm eligibility
can also be obtained online through the following resources.

• E-benefits enrollment, https://www.ebenefits.va.gov/ebenefits-
• Online application for VHA services, https://www.1010ez.med.va.gov/sec/vha/1010ez
• DD214 online, http://www.archives.gov/veterans/military-service-records/

VA Office of Inspector General                                                                13
                                 Audit of VHA’s Supportive Services for Veteran Families Program




VA will ensure compliance with this requirement through annual monitoring visits
conducted by VA Regional Coordinators and contract staff as well as periodic audits
conducted by the VA’s Financial Services Center.

Status: Complete

Completion date: December 19, 2013




VA Office of Inspector General                                                                14
                                      Audit of VHA’s Supportive Services for Veteran Families Program


Appendix E          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	                For more information about this report, please
                                                   contact the Office of Inspector General at
                                                   (202) 461-4720.

                      Acknowledgments	             Cherie Palmer, Director
                                                   Larry Chinn
                                                   Joseph DeAntonis
                                                   Kevin Gibbons
                                                   Lee Giesbrecht
                                                   Theresa Golson
                                                   David Lakoskey
                                                   John Pawlik
                                                   Nelvy Viguera Butler
                                                   Herman Woo
                                                   Ora Young




VA Office of Inspector General                                                                     15
                                   Audit of VHA’s Supportive Services for Veteran Families Program


Appendix F          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




               This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                  16
